        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Advanced Research Projects
Agency – Energy




OAS-RA-11-11                        August 2011
                                 Department of Energy
                                     Washington, DC 20585

                                        August 22, 2011



MEMORANDUM FOR THE DIRECTOR, ADVANCED RESEARCH PROJECTS
               AGENCY – ENERGY



FROM:                   George W. Collard
                        Assistant Inspector General
                         for Audits
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "The Advanced Research Projects
                        Agency – Energy"

BACKGROUND

The Advanced Research Projects Agency – Energy (ARPA-E), an agency within the Department
of Energy, was authorized in 2007 as part of the America COMPETES Act (COMPETES Act).
The goals of ARPA-E are to enhance domestic economic security through the development of
energy technologies and to ensure that the United States maintains a technological lead in
developing and deploying advanced energy technologies. To accomplish these goals, ARPA-E
focuses exclusively on high-risk, high-payoff concepts.

While ARPA-E's creation was authorized in 2007, it did not begin operations until 2009, when
the Omnibus Appropriations Act of 2009 provided an initial $15 million in funding. The
American Recovery and Reinvestment Act of 2009 (Recovery Act) provided an additional
$400 million to ARPA-E. Under the provisions of the COMPETES Act, ARPA-E is required to
spend 2.5 percent of its appropriated funds on technology transfer and outreach activities. In
January 2011, the requirement increased to 5 percent with the signing of the America
COMPETES Reauthorization Act of 2010 (Reauthorization Act). As of April 20, 2011,
ARPA-E has issued 12 funding opportunity announcements and made 122 awards valued at
$368.6 million to advance battery technology, explore alternative fuels, and improve building
efficiencies, among other areas. ARPA-E program directors, with the assistance of support
service contractors, provide project oversight.

Due to the importance of its mission and the significant level of Recovery Act funding, we
initiated this audit to determine whether ARPA-E implemented safeguards necessary to achieve
its goals and objectives and to effectively deploy associated Recovery Act resources.

RESULTS OF AUDIT

ARPA-E generally had systems in place to make research awards and to deploy Recovery Act
resources. For example, ARPA-E established selection criteria to make awards that were
consistent with its mission objectives and implemented the criteria in award selection. However,
we found that ARPA-E:
                                                 2


       Had not established a systematic approach to ensure that it was meeting the technology
       transfer and outreach requirement of the COMPETES Act. In particular, ARPA-E had not
       required funding recipients to expend a percentage of their awards on technology transfer;
       and,

       Had not drafted or, in some cases, approved draft policies and procedures in a number of
       key areas, including those in the areas of monitoring and oversight of awardees;
       termination of non-performing awards; technology transfer and outreach; and, invoice
       review.

Additionally, through transaction testing we performed at three recipient sites, we identified and
questioned approximately $280,387 in unsupported, unreasonable, or unallocable costs, or costs
considered to be specifically unallowable, that had been incurred by two recipients.

According to an ARPA-E official, ARPA-E focused its attention on meeting the Recovery Act
requirement of expeditiously awarding funds to projects by September 30, 2010; and, as a
consequence did not have sufficient time and resources to devote to establishing all its operational
controls in the area of policies and procedures. ARPA-E did not require recipients to spend a
certain percentage of their awards on technology transfer and outreach nor to track and report these
expenditures to ARPA-E. We also found that ARPA-E was unaware that recipients had incurred
the types of costs we questioned because they did not require submission of transaction details as
part of their invoice review process.

Without improvements in these areas, ARPA-E is at risk of not meeting its goals for the transfer of
technology and for reimbursing unallowable recipient costs. Controls to ensure that recipients
spend sufficient funds on technology transfer and outreach activities are necessary to help
maximize ARPA-E's ability to transfer developed energy technologies to the marketplace as
required by the COMPETES Act. Furthermore, without improved controls over costs, such as
requiring detailed support for invoiced costs, ARPA-E recipients could incur additional questioned
costs similar to those questioned at two of the three recipient sites we visited.

ARPA-E was working to improve its processes and, in doing so, addressed some of the concerns
we raised during our audit. For example, ARPA-E finalized the policy governing an invoice
review process in October 2010. More recently, in the five funding opportunity announcements it
issued in April 2011, ARPA-E included a requirement for recipients to spend a minimum of
5 percent of their awards on technology transfer and outreach and to track and report to ARPA-E
on such expenditures. In the interim, ARPA-E surveyed grant recipients about their expenditures
for technology transfer and outreach activities. The recipients estimated that, as of February 2011,
they had expended approximately $15.3 million on technology transfer and outreach, in
comparison to the approximately $10.4 million that was required to meet the 2.5 percent
technology transfer requirement. However, the estimated expenditures were not a fully reliable
indicator of whether the 2.5 percent requirement was being met since ARPA-E had not required
recipients to submit documentation to substantiate the estimated amount of expenditures they
reported for technology transfer.
                                                3


ARPA-E also finalized a policy in February 2011, outlining what were considered to be allowable
costs in the area of technology transfer and outreach. However, we are concerned that this policy
allows recipients to incur several types of costs that are typically unallowable as direct costs
under Federal Acquisition Regulations, such as the costs of procuring additional Government
funding and for meeting with investors, without providing a justification as to reasons for their
allowability.

We recommended that several management best practices be implemented, all of which are
designed to help improve ARPA-E's administration and stewardship of taxpayer furnished
resources.

MANAGEMENT REACTION

Management concurred with our recommendations and stated that it had already taken corrective
actions or would be taking actions on each of the recommendations. Management stated, for
example, that the Contracting Officer made an official determination regarding the direct costs we
questioned in the report. Management also stated that it had communicated to recipients the types
of costs that are allowable and unallowable as technology transfer and outreach costs. Overall,
management's comments were generally responsive to our recommendations.

Management's comments are included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Chief of Staff
REPORT ON THE ADVANCED RESEARCH PROJECTS
AGENCY – ENERGY


TABLE OF
CONTENTS


Program Management

Details of Finding .............................................................................................................    1

Recommendations and Comments ....................................................................................                   6


Appendices

1. Objective, Scope and Methodology ............................................................................                    8

2. Related Audit Report ..................................................................................................         10

3. Management Comments .............................................................................................               11
THE ADVANCED RESEARCH PROJECTS AGENCY – ENERGY

Program         The Advanced Research Projects Agency – Energy (ARPA-E)
Management      generally had systems in place to make research awards and to
                deploy American Recovery and Reinvestment Act of 2009
                (Recovery Act) resources. However, we found that ARPA-E
                had not established a systematic approach to ensure that it was
                meeting the technology transfer and outreach requirement of
                the America COMPETES Act (COMPETES Act) and had not
                drafted or, in some cases, approved draft policies and
                procedures in a number of significant areas. We further
                identified and questioned approximately $280,387 in
                unsupported, unreasonable, or unallowable costs, or costs
                considered to be specifically unallowable at two of the three
                recipient sites we visited.

                              Technology Transfer and Outreach

                ARPA-E had not established a systematic approach to ensure
                that it was meeting the technology transfer and outreach
                requirement of the COMPETES Act that it spend 2.5 percent of
                its budget on technology transfer and outreach activities.
                Technology transfer and outreach activities are a means
                through which ARPA-E can achieve its statutory goal of
                ensuring that the United States maintains a technological lead
                in developing and deploying advanced energy technologies.

                Senior ARPA-E officials told us that, in addition to an in-house
                commercialization team, which held summits and workshops to
                bring researchers and investors together, they included
                recipient technology transfer and outreach costs in measuring
                total technology transfer and outreach expenditures. A
                Headquarters Procurement and Assistance Policy official told
                us that including recipient efforts was a reasonable approach to
                meet the requirement, stating that recipients would be in the
                best position to market their technologies.

                However, ARPA-E had not included a requirement for
                recipients to spend a certain percentage of their awards on
                technology transfer and outreach activities nor had it required
                the recipients to track and report to ARPA-E on such
                expenditures in the funding opportunity announcement.
                Management, accordingly, determined that imposing these
                requirements on an after-the-fact basis on current recipients
                was inappropriate because the requirement was not specified in
                the funding opportunity announcements. ARPA-E
                management told us that they were encouraging current
                recipients to spend project funding on technology transfer and



Page 1                                                      Details of Finding
         outreach activities and planned to include the specific
         expenditure requirement in future funding opportunity
         announcements.

         In February 2011, ARPA-E surveyed award recipients about
         their technology transfer and outreach activities and
         expenditures. According to the recipient responses, an
         estimated $15.3 million had been expended on technology
         transfer and outreach activities. However, the estimated
         expenditures was not a reliable indicator of whether ARPA-E
         was meeting its requirement to expend 2.5 percent of its
         appropriated funds on technology transfer and outreach
         activities since ARPA-E had not required recipients to submit
         documentation to substantiate the estimated amount of
         expenditures they reported for technology transfer.

         In the five funding opportunity announcements it issued in
         April 2011, ARPA-E included a requirement for recipients to
         spend a minimum of 5 percent of their awards on technology
         transfer and outreach activities, consistent with the 5 percent
         requirement in the America COMPETES Reauthorization Act
         of 2010, and to track and report to ARPA-E on such
         expenditures. ARPA-E management officials told us that they
         plan to notify recipients of the types of costs that qualify as
         technology transfer and outreach.

                             Policies and Procedures

         ARPA-E had not drafted or, in some cases, approved draft
         policies and procedures in significant areas such as technology
         transfer and outreach, monitoring and oversight of awardees,
         termination of non-performing awards, and the review of
         awardee invoices. Specifically, at the time of our review,
         ARPA-E had not drafted policies and procedures for:

                Meeting its expenditure goals for technology transfer
                and outreach, and tracking and verifying recipient
                expenditures in such activities. ARPA-E, for example,
                had not required recipients to include technology
                transfer and outreach costs in their budgets nor to track
                their expenditures in this area. Further, existing
                procedures did not address the type of technology
                transfer and outreach activities for which expenditures
                were allowable under the award; and,




Page 2                                                 Details of Finding
                Terminating non-performing awards. As approximately
                30 percent of the awards have been in effect for one
                year or more, policies are needed to document the
                procedures for how go and no-go milestones are
                verified, the basis for determining whether to continue
                or terminate a project, and who has the authority to
                make such determinations.

         Additionally, ARPA-E had not approved draft policies and
         procedures governing the:

                Monitoring and oversight of awardees. Absent specific
                guidelines, we noted that the emphasis of monitoring
                and oversight activities, particularly during site visits,
                was on technical performance and not on business
                aspects of the awards such as the recipient's internal
                control structure. Policies are needed to require an
                evaluation of awardees' business performance,
                including an evaluation of the appropriateness of
                expenditures; and,

                Reviewing grant recipient invoices. Our audit looked at
                costs from the first funding opportunity announcement
                and we found issues regarding the consistency of
                documentation submitted by recipients. Procedures are
                needed to ensure that all recipients submit consistent
                levels of supporting documentation.

         ARPA-E told us that go/no-go milestones were verified during
         quarterly reviews. However, these reviews were not
         documented in any policy or procedures. This is especially
         important to ensure consistency between program directors
         who are short-term employees. The COMPETES Act specifies
         that program directors serve terms of not more than three years,
         although they may be renewed.

         In relation to our concerns, ARPA-E took a number of steps to
         formalize its operations. For example, ARPA-E developed a
         policy statement regarding its approach to meeting the
         COMPETES Act's technology transfer and outreach
         requirements. Additionally, as discussed below, ARPA-E has
         approved procedures for reviewing invoices.




Page 3                                                Details of Finding
                                 Allowable Costs

         We identified $280,387 in questionable costs at two of the
         three recipient sites we visited. We questioned these costs
         based on the allowable cost provisions contained in Subpart
         31.2 of the Federal Acquisition Regulation (FAR). For
         example, in our visit to one small business recipient, we
         identified $39,992 in questionable direct costs with respect to:

                meetings with bankers to raise capital;

                securing other government funding that should instead
                be included in the indirect cost pool;

                costs which do not appear to be allocable to the
                cooperative agreement because they are related to
                selling a piece of equipment;

                a fee to appear on a local television program; and,

                meal costs.

         We also noted that this recipient did not have support for its
         indirect cost rate. Rather, it was using the rate of an affiliated
         firm, to whom the award was originally made, a rate that had
         not been reviewed by an independent party. The total amount
         of indirect costs that the recipient had claimed as of June 30,
         2010, was $239,497. ARPA-E officials informed us that the
         delay in having the recipient's indirect rate reviewed by an
         independent party stemmed from the fact that the award was
         novated to a spin-off of the original recipient and a review was
         needed of the recipient's accounting system. The review of the
         accounting system was completed by an independent party in
         January 2011, and ARPA-E requested a review of the
         recipient's indirect rate in April 2011. We also identified $898
         in meal costs at a second recipient, a university, which are
         unallowable per Office of Management and Budget Circular
         A-21.

         Subsequent to our questioning the above costs, the ARPA-E
         contracting officer told us that he concluded $39,189 of the
         above direct costs were allowable since they were part of
         technology transfer and outreach activities. The contracting
         officer agreed that the $1,701 in meal costs were unallowable.
         However, according to a Headquarters Procurement and
         Assistance Policy official, if a determination is made that a


Page 4                                                 Details of Finding
                 normally unallowable cost will be allowable; it should be made
                 in advance of the cost being incurred and be documented. In
                 the above cases, the costs were not justified in advance and a
                 determination was not contained in the file. While the
                 contracting officer provided us with an oral determination of
                 the allowability of costs, he did not provide his formal
                 determination, in writing, outlining his basis for deviating from
                 the FAR.

                 Therefore, we question $40,890 in recipient expenditures. In
                 addition we question $239,497 in indirect costs, because the
                 indirect cost rate was unsupported, for total questioned costs of
                 $280,387.

Actions and      In response to our concerns, ARPA-E finalized policies
Organizational   governing the invoice review process in October 2010, and
Priorities       technology transfer and outreach in February 2011. However,
                 the policy on technology transfer and outreach allows recipients
                 to incur costs that are typically unallowable per the FAR. The
                 policy does not reference the FAR or refer to the fact that the
                 types of costs listed are typically unallowable and require prior
                 justifications for the costs before they are incurred. According
                 to ARPA-E officials, the policy was developed in part by
                 personnel who were embedded in ARPA-E but who reported
                 directly to the Director, Office of Headquarters Procurement
                 Services and to the Office of General Counsel. However, the
                 Director, Office of Headquarters Procurement Services told us
                 that, while he had seen the draft policy, he supported the need
                 for an in-depth review of the policy.

                 According to an ARPA-E official, ARPA-E focused its attention
                 on meeting the Recovery Act requirement of expeditiously
                 awarding funds to projects by September 30, 2010; and, as a
                 consequence did not have sufficient time and resources to
                 devote to establishing its operational controls in the area of
                 policies and procedures. While ARPA-E had drafted many
                 policies and procedures, relatively few were finalized.

Goal             Without improvements in the areas we discovered, ARPA-E
Achievement      is at risk of not meeting its goals for the transfer of technology,
                 and for reimbursing unallowable recipient costs. Controls to
                 ensure that recipients spend sufficient funds on technology
                 transfer and outreach activities are needed to maximize
                 ARPA-E's ability to transfer developed energy technologies to
                 the marketplace as required by the COMPETES Act.
                 Furthermore, without improved controls over costs,



Page 5                                                          Details of Finding
                   such as requiring detailed support for invoiced costs, ARPA-E
                   recipients could incur additional questioned costs similar to
                   those questioned at two of the three recipient sites we visited.

RECOMMENDATIONS    To address the issues noted in this report and ensure that
                   ARPA-E meets its goals, we recommend that the Director,
                   ARPA-E:

                      1. Finalize the remaining policies and procedures related
                         to the operation of ARPA-E, such as those related to
                         monitoring and oversight of awardees; and termination
                         of non-performing awards;

                      2. Consult with the Headquarters Office of Procurement
                         and Assistance Policy on the allowability of costs
                         contained in the newly developed policy on technology
                         transfer and outreach;

                      3. Establish a process to accurately measure progress
                         toward meeting the technology transfer and outreach
                         spending requirement;

                      4. Obtain a Contracting Officer official determination
                         regarding the allowability of costs questioned in this
                         report and to recover costs determined to be
                         unallowable; and,

                      5. Communicate to recipients the types of costs that are
                         allowable and unallowable as technology transfer and
                         outreach costs.

MANAGEMENT AND     Management concurred with the report's recommendations and
AUDITOR COMMENTS   indicated that it had already taken corrective actions or would
                   be taking action on each of the recommendations.

                   Management stated that agency specific policies both for the
                   monitoring and oversight of awardees and the termination of
                   non-performing awardees had been developed. For example,
                   management stated that they had developed a written policy
                   related to terminating non-performing awards that is currently
                   under review by the Office of General Counsel and Office of
                   Procurement and Assistance Policy. Management also stated
                   that it is deploying a web-based project management system to
                   facilitate the monitoring and oversight of awardees. Regarding
                   allowable technology transfer and outreach costs, management
                   stated a written policy has been submitted for review by the
                   Office of Procurement and Assistance Policy. Management


Page 6                                      Recommendations and Comments
         also stated that it had established a process to accurately
         measure progress toward meeting the technology transfer and
         outreach spending requirement. Specifically, management
         stated that recipients in the five most recent funding
         opportunity announcements are required to submit their
         spending in the area of technology transfer and outreach with
         each invoice.

         Regarding the costs questioned in this report, management
         stated that the Contracting Officer has made an official
         determination regarding the questioned direct costs.
         Management also expressed concern that the inclusion of
         questioned indirect costs incorrectly implies a failure to comply
         with Departmental policies and procedures. We acknowledge
         that ARPA-E has a plan of action to address the unaudited
         indirect costs; however, we questioned the costs because the
         basis provided by the recipient for the rate was not reviewed by
         an independent party.

         Finally, management stated that it had communicated to
         recipients the types of costs that are allowable and unallowable
         as technology transfer and outreach costs through five funding
         opportunity announcements issued in April 2011. While
         ARPA-E listed the allowable cost principles of the FAR in
         these funding opportunities, management should also distribute
         the technology transfer and outreach policy after it has been
         reviewed by Procurement.

         Management's comments were generally responsive to the
         recommendations. Management's verbatim comments can be
         found in Appendix 3.




Page 7                                                       Comments
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether the
              Advanced Research Projects Agency - Energy (ARPA-E)
              implemented safeguards necessary to achieve its goals and
              objectives and to effectively deploy associated American
              Recovery and Reinvestment Act of 2009 (Recovery Act)
              resources.

SCOPE         The audit was performed between May 2010 and August 2011,
              at ARPA-E headquarters in Washington, DC, and at three
              recipient sites.

METHODOLOGY   To accomplish our objective, we:

                     Reviewed applicable laws and regulations, as well as
                     internal ARPA-E policies and procedures that were in
                     place when the audit started and those that were
                     developed during the course of the audit;

                     Selected a sample of 47 applications that were
                     submitted for funding to ARPA-E from the first four
                     funding opportunity announcements (submissions made
                     between May 2009 and March 2010). We reviewed the
                     concept papers and full applications and the associated
                     reviewer comments to determine whether the
                     applications were reviewed consistent with the
                     associated funding opportunity announcement;

                     Visited the sites of three recipients who received
                     awards under the first funding opportunity
                     announcement (awards announced in October 2009)
                     and reviewed costs claimed by those recipients to
                     determine allowability of costs;

                     Held discussions with recipient personnel to determine
                     the involvement of ARPA-E in the work being
                     performed;

                     Assessed ARPA-E's management control structure over
                     the disbursement and reporting processes as they relate
                     to Recovery Act funding, monitoring of research
                     performance, and transfer of technology; and,

                     Interviewed ARPA-E and Department of Energy
                     officials.




Page 8                                Objective, Scope and Methodology
Appendix 2 (continued)

                    We conducted this performance audit in accordance with
                    generally accepted Government auditing standards. Those
                    standards require that we plan and perform the audit to obtain
                    sufficient, appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our audit objective.
                    We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit
                    objective. The audit included tests of controls and compliance
                    with laws and regulations necessary to satisfy the audit
                    objective. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. During the audit, we
                    assessed ARPA-E's compliance with the Government
                    Performance and Results Act of 1993 and found that a
                    performance measure had been established related to obligation
                    of funding beginning in Fiscal Year 2011. We utilized
                    computer-processed data to identify the populations of costs
                    incurred by the recipient sites we visited. Based on our
                    comparisons of computer-processed data to supporting
                    documentation, we determined that the data were sufficiently
                    reliable for the purposes of our report.

                    We held an exit conference with management on
                    August 11, 2011.




Page 9                                       Objective, Scope and Methodology
Appendix 3

                               RELATED AUDIT REPORT

Government Accountability Office (GAO)

America COMPETES Act: It Is Too Early to Evaluate Programs Long-Term Effectiveness,
but Agencies Could Improve Reporting of High-Risk, High-Reward Research Priorities
(GAO-11-127R, October 2010). The audit found that three of the four agencies reviewed –
Department of Energy, National Science Foundation, and National Institute of Science and
Technology – conducted basic scientific research but did not consistently set a percentage
funding goal to support high-risk, high-reward research – as required by Congress. In
addition, two of these three agencies did not report this information with their annual budget
submissions, as the law provides. Agency officials indicated that they faced challenges in
defining such research, and as a result, each program applied the criteria in the America
COMPETES Act (COMPETES Act) differently. Because the new programs authorized and
funded under the America COMPETES Act had only recently received and obligated
funding, and because of the difficulties reported by GAO and others as being inherent in
measuring outcomes of research and educational programs, the audit determined that it was
too early to assess the effectiveness of these programs.




Page 10                                                                Related Audit Report
Appendix 4




Page 11      Management Comments
Appendix 4




Page 12      Management Comments
                                                          IG Report No. OAS-RA-11-11

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
